<html>
<title> - A REVIEW OF VA'S VOCATIONAL REHABILITATION AND EMPLOYMENT PROGRAM</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]









   A REVIEW OF VA'S VOCATIONAL REHABILITATION AND EMPLOYMENT PROGRAM

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        WEDNESDAY, JULY 8, 2015

                               __________

                           Serial No. 114-30

                               __________

       Printed for the use of the Committee on Veterans' Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
         
         
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-685 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               CORRINE BROWN, Florida, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         MARK TAKANO, California
DAVID P. ROE, Tennessee              JULIA BROWNLEY, California
DAN BENISHEK, Michigan               DINA TITUS, Nevada
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
JACKIE WALORSKI, Indiana             KATHLEEN RICE, New York
RALPH ABRAHAM, Louisiana             TIMOTHY J. WALZ, Minnesota
LEE ZELDIN, New York                 JERRY McNERNEY, California
RYAN COSTELLO, Pennsylvania
AMATA RADEWAGEN, American Samoa
MIKE BOST, Illinois
                       Jon Towers, Staff Director
                Don Phillips, Democratic Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                     BRAD WENSTRUP, Ohio, Chairman

LEE ZELDIN, New York                 MARK TAKANO, California, Ranking 
AMATA RADEWAGEN, American Samoa          Member
RYAN COSTELLO, Pennsylvania          DINA TITUS, Nevada
MIKE BOST, Illinois                  KATHLEEN RICE, New York
                                     JERRY McNERNEY, California

Pursuant to clause 2(e)(4) of rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
























                            C O N T E N T S

                              ----------                              

                        Wednesday, July 8, 2015

                                                                   Page

A Review of VA's Vocational Rehabilitation and Employment Program     1

                           OPENING STATEMENTS

Brad Wenstrup, Chairman..........................................     1
Mark Takano, Ranking Member......................................     3

                               WITNESSES

Mr. Paul R. Varela, Assistant National Legislative Director, 
  Disabled American Veterans.....................................     4
    Prepared Statement...........................................    36
Ms. Heather Ansley, Associate General Counsel for Corporate and 
  Government Relations, Paralyzed Veterans of America............     5
    Prepared Statement...........................................    45
Mr. Ross A. Meglathery, MPA, Director of VetsFirst, United Spinal 
  Association....................................................     7
    Prepared Statement...........................................    54
Mr. Jack Kammerer, Director, Vocational Rehabilitating and 
  Employment Service, VBA, U.S. Department of Veterans Affairs...    24
    Prepared Statement...........................................    60
Mr. Ralph Charlip, Deputy Assistant Secretary for Operations and 
  Management, Veterans' Employment and Training Service, U.S. 
  Department of Labor............................................    26
    Prepared Statement...........................................    71

                        STATEMENT FOR THE RECORD

Mr. Benjamin L. Krause, J.D......................................    77
National Association of Veteran Program Administrators...........    89
 
   A REVIEW OF VA'S VOCATIONAL REHABILITATION AND EMPLOYMENT PROGRAM

                              ----------                              


                        Wednesday, July 8, 2015

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:04 a.m., in 
Room 334, Cannon House Office Building, Hon. Brad Wenstrup 
[chairman of the subcommittee] presiding.
    Present: Representatives Wenstrup, Costello, Radewagen, 
Takano, Rice, and McNerney.

          OPENING STATEMENT OF CHAIRMAN BRAD WENSTRUP

    Dr. Wenstrup. Good morning, everyone. I want to welcome you 
all to the Subcommittee on Economic Opportunity's hearing today 
entitled, A Review of VA's Vocational Rehabilitation and 
Employment Program.
    Today the subcommittee will conduct an oversight hearing on 
the Vocational Rehabilitation and Employment, VR&E, program at 
the Department of Veterans Affairs, a program designed to help 
our severely wounded and disabled veterans by helping them find 
gainful employment and reach maximum independent living. Every 
day, VR&E's masters level counselors work diligently with 
veterans in the program to help them create a rehabilitation 
plan and execute that plan, while also being a constant 
resource and source of support for the participant as they go 
through the rehab program.
    I agree with those that have said that the VR&E program 
should be the crown jewel of benefits provided to veterans 
through the Veterans Benefit Administration. This program has 
the opportunity to provide our most injured veterans with great 
rehabilitative services and support as they go down the pathway 
of transitioning to gainful employment and/or an independent 
life following their service.
    This program is more than just a benefits program. It is 
also a vital first step for disabled veterans to become more 
financially independent, which is a win-win for veterans and 
taxpayers alike.
    For several years now we have seen the participation in 
VR&E increase, and the President's latest budget submission 
anticipates a 10 percent increase of veterans participating in 
the program in fiscal year 2016. And as VBA continues to move 
through the current disability claims backlog, it would seem 
logical that the participation numbers for VR&E will only 
continue to rise.
    However, despite the increase in caseload numbers, it is 
concerning that for the second year in a row, the President's 
budget has flatlined counselors and resources for this critical 
program. Caseloads for counselors have always been a concern of 
this subcommittee, and I am worried that our concerns seem to 
have fallen on deaf ears.
    Our first panel would tell us that the industry standard 
for participant-to-counselor ratio should be around 1 to 125. 
However, we have heard reports that some VR&E counselors have 
caseloads of upwards of 230 veterans. It is our duty to ensure 
that our VR&E counselors have the resources they need as well 
as manageable caseload numbers so that our veterans are 
receiving the thorough and quality services they deserve in a 
timely manner.
    I look forward to hearing from VA today on how they plan to 
tackle these ever-increasing participation numbers and 
caseloads while acting within the constraints of their current 
budget environment.
    I am also concerned with the coordination between VA and 
the Department of Labor, and have specific concerns about 
VR&E's creation of Veteran Employment Coordinators, who seem to 
provide the exact same job placement services that are supposed 
to be provided by Department of Labor's Disabled Veterans 
Outreach Program Specialists, DVOPS, and Local Veterans 
Employment Representatives, LVERs.
    The question is, has VA created these new positions out of 
frustration with DOL? We have been told that many DVOPS and 
LVERs are failing to fulfill their mission and don't properly 
assist rehabilitated veterans into meaningful employment. 
However, I am concerned that the creation of these new 
positions is a clear duplication of services, which not only 
causes confusion to the veteran, but is also a waste of 
taxpayer-funded time and money. I am looking forward to hearing 
how well VA and DOL are working together for the good of the 
veteran and how the role of the Veterans Employment 
Coordinators under VA differs from the role of DOLs, DVOPS and 
LVERs.
    One of the great things about VR&E is that it is such an 
individualized program and is designed to cater to each 
veteran, but with that comes the difficult task of truly 
measuring outcomes and rehabilitation rates as well as ensuring 
consistency of services provided nationally by all VR&E 
counselors.
    I know over the years VA has tried unsuccessfully to track 
long-term outcome measures that show true success, and I look 
forward to learning more about VR&E's progress in rolling out 
their new performance metrics that they have been in the 
process of implementing. I do want to ensure that these new 
performance metrics don't negatively impact the counselor's 
ability to provide quality services to veterans.
    Finally, I want to examine VR&E's IT system and the 
progress they are making towards the much needed upgrade to 
move to a paperless system. Last month, this subcommittee 
favorably reported my bill, H.R. 2344 as amended, which would, 
among many important reforms, authorize funding to update 
VR&E's corporate IT system, called CWINRS, to improve oversight 
and tracking of taxpayer resources and the outcomes of VR&E 
participants. Although VA has said that they have already 
allocated money to make these upgrades, we have seen in the 
past that this money can easily be reallocated to other 
priorities, and my bill would ensure that this does not happen 
again.
    I do look forward to hearing about any progress the 
Department has already made in its efforts to move to a 
paperless and streamlined system, as well as how they are 
working with their VSO partners to ensure that they are also 
able to access the system in the future.
    I am sure we can all agree that this program has the 
ability to greatly improve the lives of veterans but that more 
work still needs to be done so that we fulfill our promise to 
every eligible veteran. Hopefully, this hearing today will be 
yet another positive step forward in continuing to make these 
needed improvements.
    With that, I recognize the Ranking Member, Mr. Takano, for 
his opening remarks.

        OPENING STATEMENT OF RANKING MEMBER MARK TAKANO

    Mr. Takano. Thank you, Mr. Chairman. And thank you for 
calling this hearing. I will be brief. We are here today to 
assess the effectiveness of the Vocational Rehabilitation and 
Employment Program, which has seen many changes and attempts at 
reform over the past few years, but which will be increasingly 
important in the lives of American servicemembers as they 
transition to veteran status, not as a result of the drawdown 
of forces from Afghanistan. I, and I am sure others on the 
committee, are here to find out, are eligible veterans 
accessing the program; what are the measurable results; are the 
program's full-time employee resources adequate to handle the 
number of servicemembers that will result from the drawdown of 
active duty forces from Afghanistan; and as VBA continues to 
make progress in whittling down the disability claims backlog. 
And I am pleased to hear the chairman and the majority express 
concern about the flatline in the President's budget with 
regard to counselors. We should really find out if our 
counselor capacity is adequate.
    What is the status of efforts to improve IT for the program 
and to integrate it into VBMS? What is the status of the six 
recommendations made by the GAO in its study of the program a 
year and a half ago? And finally, how well are the VA and the 
DOL working together to ensure that any veteran who is able and 
eager to work finds meaningful employment?
    So I appreciate the witnesses being here this morning to 
help us answer these questions, and I do look forward to their 
testimony. Thank you, and I yield back.
    Dr. Wenstrup. I thank the ranking member.
    I now invite our first panel to the table. Joining us today 
is Mr. Paul Varela, Assistant National Legislative Director for 
the Disabled American Veterans; Ms. Heather Ansley, associate 
general counsel for Corporate and Government Relations for 
Paralyzed Veterans of America; and Mr. Ross Meglathery, 
director of VetsFirst, a program of the United Spinal 
Association.
    All of your complete written statements will be made part 
of the hearing record, and each of you will be recognized for 5 
minutes for your oral statement. Let's begin with Mr. Varela. 
You are now recognized for 5 minutes.

                  STATEMENT OF PAUL R. VARELA

    Mr. Varela. Thank you, and good morning, Dr. Wenstrup, 
Ranking Member Takano, and members of the subcommittee. Thank 
you for inviting DAV to testify at this important hearing to 
review VA's Vocational Rehabilitation and Employment, VR&E, 
services program.
    As you know, DAV is a non-profit veterans service 
organization comprised of 1.2 million wartime wounded, injured, 
and ill veterans dedicated to a single purpose, and that is 
empowering veterans to lead high quality lives with respect and 
dignity.
    As the Nation's largest VSO comprised entirely of wartime 
disabled veterans, DAV is leading the way in providing free 
assistance to veterans and their families in filing claims for 
benefits as well as representation in appeals of unfavorable 
decisions.
    DAV's core mission is carried out through our national 
service program. Our chapter service officers, department 
service officers, transition service officers, and national 
service officers have never wavered in their commitment to 
serve our Nation's wounded, injured, and ill veterans, their 
families, and survivors, or any veteran, for that matter. In 
all, DAV has 3,815 service officers, including county veteran 
service officers accredited by DAV, all of whom are on the 
front lines providing much-needed claims services to our 
nation's veterans, their families, and survivors.
    DAV service officers bring valuable military and personal 
experience while performing their daily service work. They 
understand the rigors of military service and challenges 
associated with navigating the VA healthcare and claims 
processing systems. DAV NSOs in particular have themselves 
participated and successfully completed a VR&E rehabilitation 
plan as part of our DAV 16-month on-the-job training program. 
Due to our backgrounds in training, DAV NSOs not only possess a 
significant knowledge base, but also a passion for helping our 
fellow veterans navigate a sometimes complicated VA system and 
its myriad benefit programs.
    In addition to assisting veterans and their dependents file 
claims for disability compensation, our NSOs regularly advise 
veterans on the opportunities and benefits afforded by VA's 
VR&E program. As part of our lifelong continuing education 
program, DAV NSOs are trained on all VR&E programs, and we 
regularly refer and encourage our clients to consider VR&E 
programs when appropriate.
    The VR&E program assists veterans with service-connected 
disabilities in preparing for, finding, and keeping jobs 
suitable to their skill sets and within any limitations imposed 
on them due to wounds, injuries, or illnesses sustained as a 
result of their military experience. For veterans with severe 
service-connected disabilities that impact their ability to 
work, other services are available to help them lead more 
independent lives.
    Mr. Chairman, DAV is a staunch proponent of the VR&E 
program, because it embodies DAV's central purpose of 
empowering veterans to lead high quality lives with respect and 
dignity. We want to ensure this life-changing program is not 
just maintained, but also enhanced to truly give every eligible 
wounded, ill, and injured veteran the opportunity to maximize 
their utility, to lead high-quality lives with respect and 
dignity despite any limitations imposed upon them due to their 
service-connected disabilities.
    We have provided several recommendations in the form of 
resolutions from our members that would enable these veterans 
to achieve more meaningful and gainful economic prosperity. In 
accordance with DAV Resolution No. 048, as adopted at our most 
recent national convention, we support legislation that would 
eliminate the 12-year limitation provided to veterans to apply 
for VA vocational rehabilitation.
    We believe leaving a veteran's period of entitlement open-
ended would be a better policy. Legislation to effect this 
change is also supported by the independent budget, IB, 
veterans service organizations.
    In accordance with DAV Resolution No. 052, as adopted at 
our most recent national convention, we call on Congress to 
strengthen VA's VR&E program to meet the demands of service-
disabled veterans by providing increased staffing and funding, 
placement follow-up with employers for at least 6 months, 
childcare vouchers, and removing the cap placed on the 
independent living program. This legislation is also supported 
by the IB VSOs.
    And lastly, in accordance with DAV Resolution No. 227, as 
adopted at our most recent national convention, DAV calls on 
Congress to create a new Veterans Economic Opportunity 
Administration and also calls for the transfer of DOL vets to 
the VA as a key element of this new administration.
    We were pleased with the introduction of H.R. 2275, the 
Jobs for Veterans Act of 2015 in this Congress, and that H.R. 
2275 was forwarded to the full committee by this subcommittee 
on June 25, 2015. DAV strongly supports this legislation.
    Mr. Chairman, Ranking Member Takano, and members of the 
subcommittee, thank you for allowing me the opportunity to 
present the testimony today.

    [The prepared statement of Mr. Varela appears in the 
Appendix ]

    Dr. Wenstrup. Thank you, Mr. Varela.
    Ms. Ansley, you are now recognized for 5 minutes.

                  STATEMENT OF HEATHER ANSLEY

    Ms. Ansley. Thank you, Chairman Wenstrup, Ranking Member 
Takano, and members the subcommittee. Paralyzed Veterans of 
America would like to thank you for the opportunity to testify 
today regarding the Department of Veterans Affairs Vocational 
Rehabilitation and Employment Program.
    In July, our Nation will celebrate the 25th anniversary of 
the Americans with Disabilities Act, which provides equality of 
opportunity and access for Americans with disabilities. Despite 
all of our advances, however, veterans and all people with 
disabilities remain underrepresented in our Nation's workforce. 
Veterans with catastrophic disabilities, which comprises PVA's 
membership, continue to face barriers when seeking to return to 
the workforce. As a result, in 2007, PVA launched Operation 
PAVE, which stands for Paving Access for Veterans Employment. 
Operation PAVE is a vocational rehabilitation program that 
assists PVA's members, those who are service connected and 
those that are non-service connected, other veterans with 
disabilities, their families and also caregivers in obtaining 
and retaining employment. Today, Operation PAVE has seven 
regional offices around the Nation.
    Operation PAVE provides one-on-one career counseling and 
assistance. All services, from our resume assistance, interview 
preparation, vocational counseling, and employer networking are 
provided at no cost to participants. Our program is staffed by 
experienced graduate-level certified vocational counselors and 
employment analysts. Although PAVE counselors are working with 
some of the most difficult to place clients, they are 
successful in returning them to the workforce.
    Operation PAVE seeks to keep its counselor load at a 
maximum of 125 veterans per counselor or less. The ratio of 1 
to 125 is recognized as a full workload in the field of 
vocational rehabilitation counseling. When any vocational 
rehabilitation counselor is required to work with more than 125 
clients, the employment counseling process is delayed.
    PAVE counselors recently reported that veterans have 
expressed frustration with how difficult it can be to connect 
with their VR&E counselors, as calls and emails sometimes go 
unanswered. The Independent Budget coauthored by AmVets, 
Disabled American Veterans, PVA, and the Veterans of Foreign 
Wars has continually highlighted the shortage of VR&E 
counselors. The IB projects that approximately 165,000 veterans 
will participate in the VR&E program in fiscal year 2016. To 
achieve a maximum ration of 1 to 125, VR&E would need an 
additional 382 full-time equivalent employees. This increase in 
staff would provide 277 new VR&E counselors and 105 new 
employees providing support services. These additions would 
require an increase in appropriations of $41.8 million.
    Providing VA with additional resources to decrease the 
counselor-to-veteran ratio is a step in the right direction. VA 
must also, however, reduce bureaucratic hurdles that delay 
veterans in moving through the VR&E process. For example, 
Operation PAVE counselors have noted that they are able to 
sometimes more quickly begin providing resume assistance, 
interview preparation, and vocational counseling because there 
are fewer procedural hurdles to clear for eligibility. And we 
urge the VA to continue to build efficiencies into the system 
that would eliminate any wait times and assist counselors in 
managing their time and caseloads as efficiently as possible.
    If current resource levels are maintained, one way to 
reduce the load for counselors and employment specialists is to 
continue to increase partnerships with organizations such as 
ours that provide specialty placement services. This is 
particularly important in the case of veterans who have unique 
needs related to their disabilities and life circumstances.
    PVA's Operation PAVE counselors have indicated that they 
have developed relationships with VR&E counselors. One PAVE 
counselor reported that she receives referrals of veterans with 
significant disabilities who need specific one-on-one help in 
returning to work. Without these referrals, she feared that it 
would be difficult for her overloaded VR&E counterparts to 
dedicate the time and resources that are necessary to help 
someone with these types of disabilities return to work.
    Without these types of partnerships, severely disabled 
veterans would likely receive minimal consideration or be 
designated as unemployable. Severely disabled veterans require 
the commitment and special attention that a VA counselor is 
trained to provide, but cannot afford to present with the 
caseloads. By referring these veterans to PVA's counselor, the 
veteran receives the specialized attention necessary, which 
more frequently leads to placement and suitable employment.
    In some cases, there are fewer connections between our 
offices and VA's VR&E program, but we are pleased that the VR&E 
director has committed to us that he is interested in 
increasing collaboration.
    Congressional funding for VA's VR&E program must keep pace 
with veterans' need for services.
    PVA thanks you for the opportunity to testify today and we 
would be pleased to answer any questions.

    [The prepared statement of Ms. Ansley appears in the 
Appendix]

    Dr. Wenstrup. Well, thank you, Ms. Ansley.
    And, finally, Mr. Meglathery, you are now recognized for 5 
minutes.

                STATEMENT OF ROSS A. MEGLATHERY

    Mr. Meglathery. Chairman Wenstrup, Ranking Member Takano, 
and other distinguished members of the subcommittee, thank you 
for giving VetsFirst the opportunity to testify regarding the 
effectiveness of VA's Vocational Rehabilitation and Employment 
Program.
    VetsFirst has represented our disabled veterans, their 
families, and their caretakers since 1946. We advocate for the 
program services and disability rights that help all 
generations of veterans with disabilities remain independent 
and fulfill their desire to reintegrate into society. Today, as 
part of the United Spinal Association, we are not only a VA-
recognized national veterans service organization, but we are a 
leader in advocacy for all people with disabilities.
    The opportunity to participate in the workforce is 
critical, not only financially, but also because returning to 
work is a way to adjust to the normality of life in a veteran's 
post-military years. Without the opportunity to work, many 
veterans with disabilities may become disconnected from the 
very society for which they sacrificed their time and their 
health.
    VetsFirst is concerned that the VR&E program still lacks 
the resources needed to best assist all disabled veterans in 
returning to employment. Additionally, we are concerned about 
VR&E's difficulty in helping veterans overcome certain 
disabilities that contribute to their inability to succeed in a 
vocational rehabilitation program. Veterans who are living with 
mental health conditions have poorer VR&E outcomes than those 
with other disabilities. Veterans with more serious 
disabilities may also routinely require a higher level of 
employment support both pre- and post-placement than is 
typically provided by VR&E.
    VetsFirst would like to take this opportunity to highlight 
two issues of concern. Under the current requirements, to be 
eligible for benefits, it must be 12 years or fewer since the 
vet's date of separation from active military service or when 
VA notified them of their qualified service-connected 
disability, whichever date is later.
    Congress should do away with the 12-year requirement. The 
injury, either physical or mental, will be with the veteran for 
their lifetime. While a mental or emotional injury may not 
immediately affect the vet, it may acutely manifest itself in 
the individual at any time in the future.
    On a personal note, being a combat-wounded veteran, it is 
my experience that it is often difficult to come to terms with 
one's emotions after the trauma of war. While prior to fighting 
in Iraq, I had a quick temper, I think it likely my lack of 
patience and temper were exacerbated by the stresses of war. It 
took me a long time and a lot of reflection to come to that 
conclusion. That is why I think it necessary to reevaluate the 
section of vocational rehabilitation that limits the time 
period to 12 years of eligibility.
    I am only one veteran, and I have anecdotal experience that 
leads me to believe that I am not alone in having had to mature 
a little and begin to reflect before I was able to come to 
terms with the effect of war. I believe the long-term effects 
of PTS are strong validation of why 12-year eligibility must be 
extended.
    There have been great efforts by VA and DoD to remove the 
stigma for servicemembers asking for help. However, it is only 
recently that that stigma has started to be chipped away at. 
For someone that had shown signs of PTS early in the wars in 
Iraq and Afghanistan, it is already too late for them to use 
VR&E under the 12-year eligibility rule. While a servicemember 
asking for help now may arguably not feel stigmatized, I would 
likely say that they would have as recently as a decade or even 
5 years ago.
    I would also like to discuss the caseload and the staffing. 
While there has been a reduction in the caseload--well, 
VetsFirst believes the caseloads in the current state are still 
too high and VA resources are not sufficient to provide timely 
results. Not all injuries are created equally, and those 
afflicted with spinal cord injuries or traumatic brain injury 
are likely to require more individual time and attention.
    We believe that in order to more effectively manage VR&E, 
there are several options that should be exercised. Congress 
must appropriate the proper funding level to support VR&E and 
must also support efforts to hire sufficient staff. However, 
the answer to reducing the counselor-to-veteran ratio is not 
strictly a matter of increasing the budget and staff levels.
    The goal of VR&E is employment. Therefore, it is important 
that the VR&E program exercise a holistic approach to getting 
veterans back to work. For veterans who require more support in 
services, VA should consider partnering with a variety of non-
profit organizations that provide intensive services needed to 
assist veterans living with significant disabilities, including 
mental health conditions, and returning to and remaining in the 
workforce. Additionally, VR&E needs to enhance its relationship 
with State and local government and industry writ large. Proper 
funding and reduction of caseload and building partnerships 
with other public and private sector entities is crucial for 
the success of both VR&E and the veteran.
    VA must also track veterans' employment in the long-term. 
VetsFirst believes that a veteran would greatly benefit if 
their employment were monitored for at least a year. By 
establishing a longer-term relationship with a counselor 
periodically following up, the VA will be able to track the 
effectiveness of the program and hold employers accountable to 
their commitment to support VR&E.
    VetsFirst would like to express its thanks for the 
opportunity to testify concerning its views on VA's VR&E 
program. We appreciate your leadership on behalf of our 
Nation's veterans who are living with disabilities. I will be 
happy to answer any questions.

    [The prepared statement of Mr. Meglathery appears in the 
Appendix]

    Dr. Wenstrup. I want to thank each of you on the panel 
today for your testimonies. I will now yield myself 5 minutes 
for questions.
    And really I want to discuss something that both Mr. Varela 
and Mr. Meglathery brought up very explicitly, which was the 
12-year limit on access to VR&E services. And as you probably 
know, last session the House voted to eliminate that and to 
extend it, but it wasn't taken up further. But my question 
today is, are you having a difficult time for those seeking 
waivers, because there are several ways to get a waiver for 
that? And I am wondering if you are keeping any type of 
statistics on those that are denied a waiver or what the 
process is like for you as you are helping those that seek a 
waiver. Mr. Varela.
    Mr. Varela. Thank you, Dr. Wenstrup. DAV is not keeping 
track on waiver outcomes, although I am sure that is 
information that we could obtain. It shouldn't be too 
difficult. But what I would say is you have to go through 
another administrative procedure to get that determination, and 
we really just--if a veteran is coming to VR&E, they are not 
coming to VR&E because they have nothing better to do; they are 
coming there because they need help. So if we can eliminate one 
other barrier, get them right into the pipeline to VR&E 
services, that is a win-win for everybody.
    Dr. Wenstrup. And I would agree with you, going through 
more paperwork is not fun for anybody, but I was just curious. 
Do you have any comment on that, Mr. Meglathery.
    Mr. Meglathery. We could also look that information up for 
you, but we are not tracking that. But I would like to agree 
with Mr. Varela on the point if they are seeking help with 
VR&E, then it means that they really do need that help, because 
I think for many veterans, they are not even aware necessarily 
of those benefits. They know GI Bill benefits and they know 
healthcare benefits in general.
    Dr. Wenstrup. And I think it would be helpful for all of 
us, you know, the VA side and your side of the issue, is if you 
are seeking a waiver, how long is that actually taking, 
because, as you know, time is often of the essence in these 
situations.
    You know, each of you discussed the need for VR&E 
counselors to track a veteran's employment and success beyond 
60 days, and I agree with that wholeheartedly. I really want to 
know what your long-term outcomes are and what kind of success 
you are having or not. I would love to hear from each you to 
expand on this and provide any recommendations that you may 
have as far as time period that we may want to put in place and 
how we can go about tracking the veterans better, because you 
know it is often difficult to continue to track someone. So any 
input you have on that, and we will go down the line.
    Mr. Varela. Right now we recommend in the Independent 
Budget, I believe it is 6 months after they have completed 
their program to determine whether or not they have maintained 
their employment. Anything beyond that would be great. What we 
have to remember, though, is that we are putting another task 
on the plate of a VR&E counselor. So how do we make that 
efficient and smooth so there is no time loss with the VR&E 
counselors so they can continue to do what they need to do and 
help other veterans. And probably the best way that you are 
going to be able to do that is going to be through IT 
enhancements, and so whatever IT enhancements they make going 
forward, perhaps there is a way to put a component in there in 
the system that tracks or reminds a VR&E counselor to follow up 
with that veteran.
    I mean, it wouldn't take much to just call a veteran, you 
know, every 30, 60, 90 days within that 6-month period, or an 
email or some time type of correspondence, just want to find 
out how you are doing with your work, or maybe there is an 
employer input that we can work into some system as well.
    Dr. Wenstrup. Thank you. Ms. Ansley.
    Ms. Ansley. PVA supports having at least a year follow-up. 
And I think Mr. Varela's comments about IT are a way that we 
can extend services to people and find out how they are doing 
in their employment beyond necessarily having counselors that 
are already stretched thin making that outreach, although 
certainly we would like that, but feel that IT could be a way 
to address that.
    We also believe that, particularly with veterans who have 
evolving disabilities, disability is not static, so you may 
have changes that arise that you need different types of 
accommodations that you weren't thinking of at the beginning, 
you know, new things that arise that you don't want to see a 
person remove themselves from the workforce, which is what may 
happen, when actually having somebody intervene and work with 
you and your employer may keep you in the workforce, which is 
what everybody wants.
    Mr. Meglathery. I would just like to add that the Wounded 
Warrior regimen that the Marine Corps has does a very good job 
of following up on a veteran just to say--just to find out how 
they are doing, you know, after their injury. And they call me 
pretty frequently, maybe once a year, but it might be more 
frequently than that, but I think it is--the IT solutions in 
order to keep track of that, useful definitely, but the fact 
that there is somebody calling you to talk to you to find out 
what is going on, I think, is pretty meaningful. And it doesn't 
necessarily have to be the counselor if you are just trying to 
track. Then depending on what the outcome of that phone call 
is, then you can push it onto a counselor or not.
    Dr. Wenstrup. Thank you.
    I now yield 5 minutes to the ranking member, who is 
recognized.
    Mr. Takano. Thank you, Mr. Chairman. And I, again, thank 
you for calling this hearing.
    Mr. Meglathery. Pretend its MC.
    Mr. Takano. Meglathery. You mentioned about the problem of 
the awareness of benefits. This came up in one of my pre-
meetings with the VA folks. One of the things I am troubled by 
is the Federal Government's ability to--not just in the VA--to 
make citizens aware of what they are eligible for.
    Do we have an idea of how we can do a better job of 
connecting with veterans in need of VR&E services?
    Mr. Meglathery. It was I who said that, yes. Well, I got 
off active duty in 2007, so I certainly knew about the GI Bill 
benefits and the health benefits, and I remember in my TAPs 
classes they brought some VA representatives, but I don't 
believe that they even mentioned VR&E. And I might be wrong, 
but it certainly didn't strike me as something that I was aware 
of. I didn't find out about it until a couple years ago.
    So it might be--part of why VR&E is not known so well maybe 
is the fact that GI Bill has been so successful, but I think 
also, although it is very much focused on the employment aspect 
of it, there is the educational component to it, and so I think 
there is probably a way that you can tie those in together as a 
package for the veteran so that they are aware of all those 
issues, so it is not just education, it is employment.
    Mr. Takano. So you are saying that servicemembers are more 
versed in the GI Bill and don't know about the VR&E services?
    Mr. Meglathery. That is correct. And I think they are 
probably--there are cases too where they might be able to use 
VR&E benefits where they would instead use the GI Bill because 
they are aware of the GI Bill benefits, but they are not aware 
of VR&E.
    Mr. Takano. So you are saying that though TAP is VR&E 
benefits are not getting through to service members. I 
understand that to qualify you have to have a certain level of 
disability, and I'm asking whether vets are they aware at that 
point in the TAP process of the rating requirement? Does that 
come later?
    Mr. Meglathery. I think they have done a much better job in 
recent years of trying to tell the veteran that they need to--
before they get off active duty, that they really need to go to 
the VA to get their rating prior to--like I said, prior to 
getting off active duty.
    So the information I just gave is a little bit dated, so I 
can get you information for the record in terms of how that is 
working out now with the notification of VR&E. I am still in 
the Reserves, so I still am tapped into the Marine Corps.
    Mr. Takano. Let me hear from some of the other panelists on 
this access issue and particularly how it relates to the 
veterans getting information about VR&E services.
    Mr. Varela. So currently, you go through TAP, and its an 
information dump. I mean, there are so many things flying at 
servicemembers at that time, home loan eligibility, you have 
DOL that is providing information, you have VA that is 
providing information. They are going--they are trying to file 
their--some are filing their claims at that time, so it is a 
lot.
    Mr. Takano. And if you are a vet, particularly with PTS can 
all of this information be a problem?
    Mr. Varela. Correct, in some cases. So hopefully, and what 
we believe is going to happen with TAP is they are going to 
create an option so that you can go back and relearn what you 
learned when you got out, kind of a review.
    The other thing that I would mention is if you are being 
medically separated from the military with a 10 percent 
disability or 20 percent disability or greater, the VR&E 
component, the voc rehab component is open, so you will 
actually get to sit down and talk to a VR&E counselor about 
your options. The issue is that if you are being medically 
separated, not all servicemembers that are going out are being 
separated because of a medical disability, so they file their 
claims somewhere outside of that process and they have to learn 
about VR&E.
    So we have to make sure that we continue to pump out 
information to them that VR&E services are available.
    Mr. Takano. So is it the case that a TAP orientation is not 
done for the medical separations?
    Mr. Varela. I am sorry. Is not done?
    Mr. Takano. So if you are being medically separated as 
opposed to going through the regular separation process, is 
there a TAP process for those being medically separated?
    Mr. Varela. It is not a--there is a separate kind of behind 
the scenes that takes place when you are being medically 
separated. You are going to get a different kind of--you are 
going to get different kind of attention, you are going to get 
pushed in a different direction, you are going to have VR&E 
specialized services, but--so the answer to your question is, 
yes, it will be specialized for those people that being----
    Mr. Takano. Specialized how?
    Mr. Varela. Yes.
    Mr. Takano. A variation of it.
    Mr. Varela. It is augmented from what they would generally 
go through.
    Mr. Takano. Okay. All right.
    Mr. Chairman, I yield back.
    Dr. Wenstrup. Thank you.
    Ms. Radewagen, you are recognized for 5 minutes.
    Ms. Radewagen. Thank you, Chairman Wenstrup. I would like 
to thank both you and Ranking Member Takano for holding this 
hearing today, and I would like to welcome the panel.
    My question is for Ms. Ansley and Mr. Varela. In your 
written statement, you mentioned that veterans rehabilitation 
and employment counselors' caseloads are too high and that 
additional staffing resources are needed to ensure eligible 
veterans aren't delayed in gaining services. Short of increased 
staff, what is something that VA can do right now to reduce the 
counselor-to-participant ratio, particularly in rural and 
outlying regions such as the United States territories in the 
South Pacific?
    Ms. Ansley. Thank you for the question. I certainly think 
that there is a range of opportunities beyond additional 
counselors, although we do feel additional counselors are a key 
aspect.
    I would have to highlight the need to look at public and 
private partnerships that may be available in a particular area 
where there could be an extension of the services that VR&E 
provides by looking to others that can help to assist to make 
sure that people don't fall through the cracks. That is, our 
biggest concern is that veterans would not feel that the 
benefits are available to them, things are not timely. And so 
what tends to happen is people deselect themselves and say, you 
know, I think I will just not go through the process, you know, 
I will just go a different route. And that is typically not 
very successful for many people. And I think that that is what 
we have seen in States that have vocational rehabilitation 
programs.
    Of course, you know, there are lots of programs that are 
out there for different types of communities, and VR&E is doing 
more to partner with those Federal agencies, State agencies, 
other opportunities. So I think we have to look at how can we 
work together to meet those needs.
    Ms. Radewagen. Mr. Varela.
    Mr. Varela. Yes, ma'am. Unfortunately, there is no way to 
get around presently the manpower issue. The issue of manpower 
has been that over the last few years, the rate of counselors 
has not kept pace with the rate of applicants, has not kept 
pace with the rate of program participants. So any short-term 
lift that we can get aside from bodies, aside from people would 
have to probably come through IT, you know, what can be 
streamlined through those processes to make maybe the decision 
process a little easier, the management of caseloads a little 
bit easier, getting away from a paper environment, moving more 
to electronic environment, but as was mentioned in the opening 
statements, you know, we continue to see a drawdown in the 
military, we continue to have the VA processing more and more 
and more claims. We are going to need the people to keep up 
with the demand.
    Ms. Radewagen. Thank you, Mr. Chairman. I yield back.
    Dr. Wenstrup. Mr. McNerney, you are now recognized for 5 
minutes.
    Mr. McNerney. Thank you, Mr. Chairman.
    It sounds like the whole purpose really is to get veterans 
into work and to get them into businesses. Does the VR&E 
program give help or assistance to service-connected disabled 
veterans in starting their own businesses? Whoever would care 
to answer.
    Ms. Ansley. Thank you for the question. There certainly are 
opportunities that VR&E is working with, and I know recently as 
part of the administration's Curb Cuts to Middle Class 
Initiative, which was targeted at all people with disabilities, 
VR&E made some connections with Small Business Administration 
and other groups they haven't been able to make some good 
connections with in the past. So I think that there is an 
interest. I don't think it is probably where it needs to be to 
look at entrepreneurial opportunities, particularly for 
veterans with more significant disabilities, for whom travel 
may be an issue and other accessibility. I think that is 
certainly an area that we do need to continue to augment.
    Mr. McNerney. Okay. Well, if you have any suggestions on 
how to move forward on that, we would love to hear that, and we 
can see if we can get that into action.
    What is the connection, or the overlap between the VR&E 
programs and the GI Bill? Whoever would care to answer that. 
Mr. Varela, would you care to answer that?
    Mr. Varela. Okay. So what we are talking about now is the 
overlap between post-9/11 GI Bill----
    Mr. McNerney. Right.
    Mr. Varela [continuing]. And VR&E. And as was mentioned 
earlier, when servicemembers are getting out, what is 
emphasized a lot is the post-9/11 GI Bill, which is less 
cumbersome to utilize and can provide much of the same benefits 
that are offered through VR&E. So there is some differences. In 
VR&E, they will pay for your books, they will pay for tuition, 
they pay for a lot of things in particular. On the other side, 
on the post-9/11 GI Bill, there is a larger monetary value that 
you receive from that benefit depending on where you live, 
based on your BAH. So when you look at the two programs and you 
say, well, which one do I want to go into, a lot of times what 
a post-9/11 veteran may say to themselves is, which one is 
going to be easier for me to enter? And as a post-9/11 veteran, 
you get to say, I want to use this benefit for these programs, 
and as long as they are recognized by the VA, you pretty much 
get to go into that program.
    With VR&E, you have to go through a process, which a 
counselor has to determine whether or not you can enter that 
program and utilize those services. So they mirror in some 
regards, but in others they don't.
    Mr. McNerney. So can you participate in both the GI Bill 
and the VR&E programs?
    Mr. Varela. You cannot use both simultaneously. You are 
either in one or the other. What winds up happening is if you 
are eligible for post-9/11 GI Bill benefits and you are in 
VR&E, there is an augmentation of your stipend because of what 
you would have received under post-9/11, but you cannot use 
both educational benefits at the same time.
    Mr. McNerney. Thank you.
    Mr. Meglathery, you mentioned the need for a holistic 
approach with partners. Could you elaborate on that a little 
bit, please?
    Mr. Meglathery. Well, I was going to say, I think Ms. 
Ansley actually had kind of pointed that out well when we were 
talking about manpower shortages, where if you are in an 
isolated area, maybe, you know, getting other businesses 
interested in employing veterans, et cetera, so having the 
local community working with the VA in the area, especially 
where there is fewer--where there is a lack of presence.
    Mr. McNerney. Are there guidelines or incentives that this 
committee could supply to the business community?
    Mr. Meglathery. There are guidelines and there are 
benefits, and I could get back to you on that.
    Do you have any more detail?
    Ms. Ansley. I think continuing to encourage the 
partnerships that would occur between VA and community 
resources by looking at barriers that may exist to 
participation. I know with PVA's program, it is--you know, we--
our work is fund-raised through other means, and we just work 
with VA to serve veterans, so we are not interested in any type 
of monetary connection. For others, that may be a concern.
    So I think it is looking at what would those community 
organizations need to serve and be partners, because they want 
to be, but in many cases, they are also stretched too.
    Mr. McNerney. You mentioned, Ms. Ansley, that you could use 
another 318, I think, new counselors. I forget the exact 
number, but----
    Ms. Ansley. 382, I believe.
    Mr. McNerney. Oh, 382.
    Ms. Ansley. 382, yes.
    Mr. McNerney. Okay. I got the 8 right, but I was in the 
wrong tens.
    Ms. Ansley. We were all close.
    Mr. McNerney. So how does that work? I mean, you would get 
those funded through the VA, the VA would fund Paralyzed 
Veterans of America to hire those?
    Ms. Ansley. No. Those would be counselors, VR&E counselors. 
That is completely separate from our program. That is PVA 
advocating for VR&E's program to get additional resources.
    Mr. McNerney. All right.
    Thank you, Mr. Chairman. I now yield back.
    Dr. Wenstrup. Thank you.
    Ms. Rice. you are now recognized for 5 minutes.
    Ms. Rice. Thank you, Mr. Chairman.
    Mr. Varela, maybe I missed this. What is the exact ratio of 
counselor to veteran?
    Mr. Varela. That depends on what regional office you are 
looking at.
    Ms. Rice. Is there an overall number, or do you have to go 
that----
    Mr. Varela. I believe if you took all of them together and 
you looked at the ratio, it comes out to about 137 veterans for 
every one counselor. Yeah.
    Ms. Rice. Okay. So clearly, that is the reason for why you 
need more counselors, because you can't possibly--no matter how 
good your IT follow-up system is, you can't have one human 
being able to do the necessary follow-up. Do you agree?
    Mr. Varela. I agree. And then what makes it even more 
complicated, when you are looking at a group of disabled 
veterans, let's say it is even 125, we get it down to that 
number, you know, how many of them are going to have more 
severe disabilities than their other disabled veteran 
counterparts and require more hands on, more time, and more 
effort to make sure that they are being shepherded through the 
program properly. So----
    Ms. Rice. Is it a resource issue for the lack of counselors 
or a training issue? What is it?
    Mr. Varela. It is multifaceted. It is not--so if we bump up 
VR&E counselors, let's say that Congress somehow managed to get 
them to 125 or better, okay, does the VA have the space in its 
facilities to accommodate an increase in VR&E counselors? So 
what other options do you have there. Because along with 
bumping up your VR&E counselors, you also need the support 
personnel to help them.
    Ms. Rice. The IT enhancements that you were talking about 
for follow-up purposes, and I know Mr. Takano was asking about 
using IT, any aspect of the IT enhancement that could address 
informing veterans of this service, VR&E service, what kind of 
monetary investment in the IT system would that require? Do you 
have a dollar figure for that?
    Mr. Varela. I believe we may have included that in our 
Independent Budget recommendation, so I will have to take 
that----
    Ms. Rice. Okay. I will----
    Mr. Varela [continuing]. Question for the record, and I 
will be sure to get back to you.
    Ms. Rice. Okay. So I am just going to stay with you, Mr. 
Varela. The 20-year study that Congress mandated found that 90 
percent of participants are moderately to highly satisfied. How 
do you get that statistic? I mean, is there, like, a follow-up 
questionnaire or----
    Mr. Varela. That is a good question, because we had 
actually asked to see what that questionnaire looked like, and 
we were not provided with that.
    Ms. Rice. Okay. Well, maybe we can find that out, because I 
would like to know how they came to that number of 90 percent 
of participants. It seems awfully high.
    Mr. Varela. Yes.
    Ms. Rice. I just wonder what the universe of people are.
    Mr. Varela. And the questions, obviously, right?
    Ms. Rice. Yeah. Certainly, and the questions. Right. The 
other thing that they found was that women make up a larger 
percentage of VR&E program participants, 17 to 20 percent than 
the overall veteran population, which is 9 percent. Are we 
communicating these services of VR&E better to women vets than 
we are to men vets? I mean, have you seen an increase more in 
women accessing this service than men? I mean, help me out 
there.
    Mr. Varela. I couldn't speculate other than they probably 
pay better attention than me. So that is probably----
    Ms. Rice. Well, we know that. Women are far more oriented 
that way.
    So, Ms. Ansley, just my last question. And this goes to 
what Mr. McNerney was getting to, and I understand trying to 
involve on a local level small businesses in more rural areas, 
but is there a gold standard, or a template, for public-private 
partnership in this VR&E program, meaning are we reaching out 
to, you know, big businesses, you know, across the country and 
in individual areas to partner with them? I mean, we just had 
the Brave Act passed out of here that actually would allow the 
Secretary of the VA to give preference to businesses that are 
seeking Federal contracts that show that they have a record of 
hiring veterans. I mean, I think we all agree that they are 
some of the most highly-trained Americans that we have.
    So is there at present a public-private partnership that 
exists in that limited area with the VR&E program to help 
funnel people accessing the VR&E program into private 
businesses who have shown an interest in hiring veterans?
    Ms. Ansley. I think that is part of the multifaceted 
interplay between not only VR&E, but then also the Department 
of Labor's Vets Program, which, you know, provides assistance 
for disabled veterans seeking benefits. So I think it is more--
in some cases, it is not necessarily VR&E reaching out 
directly, but are there Federal partners who work with those 
companies working with VR&E to provide those pipelines. For 
instance, the Office of Federal Contract Compliance at the 
Department of Labor works with Federal contractors. There are 
Federal mandates as far as hiring people with disabilities, 
hiring veterans with disabilities. These companies want to hire 
veterans and want to hire people with disabilities. And it is 
about trying to make those connections, because what we hear 
from the contracting community is, you know, we want to hire 
people, but we don't know where to go, we don't know where to 
look to find the people that meet our requirements.
    So PVA is working in collaboration with other groups to 
work with Industry Liaison Group, which is part of Department 
of Labor, it is the Federal contractor group that looks at how 
they can meet their requirements.
    So sometimes it is making those connections for people that 
may exist in other government silos, if you will----
    Ms. Rice. Right.
    Ms. Ansley [continuing]. And helping to say, hey, we have 
got people over here that we are training. We know that you 
need employees who have these qualifications to help you meet, 
you know, these specific requirements. How can we better work 
together?
    Ms. Rice. Well, whatever--we can speak off-line in terms of 
helping to figure that out, because to me that--we have the 
willingness to hire, and if it is just a simple lack of 
communication or coordination, we should be able to put that 
together, it seems to me. Right?
    Ms. Ansley. That would certainly be a goal that we would 
want to accomplish.
    Ms. Rice. Great. Thank you.
    Thank you, Mr. Chairman.
    Dr. Wenstrup. Mr. Costello, you are now recognized for 5 
minutes.
    Mr. Costello. Thank you, Mr. Chairman.
    Greetings. I had the opportunity to review the testimony in 
advance, and I would like to ask a question for each of you to 
address. I think one of the main concerns, at least one of 
mine, I think maybe probably for most others, is how to improve 
the collaboration between VR&E, VHA, and other parts of the VBA 
to reduce overlap and improve performance?
    Can you share with me where you see the greatest 
opportunities are for increased collaboration, and how would 
you improve collaboration to enhance services provided by VR&E?
    Mr. Varela. Thank you for the question, Congressman. Where 
is the opportunity for that collaboration? Where can it would 
be enhanced with all three partners? Right here. We need to get 
everybody to the table and talk about what we can be doing to 
help one another, what are some of the barriers that we are 
seeing out there, how can we eliminate them. I don't know that 
it would need to be so formal as a hearing, but certainly a 
roundtable with these representatives to talk about, what are 
the challenges? What do we need to do? If legislation is 
needed, then that is when we have this conversation. If is 
something that does not require legislation, then we take care 
of that behind the scenes.
    Ms. Ansley. It really gets to the idea of being veteran-
centric and looking at how do we meet those needs. Veterans 
don't look at, you know, well, that is VBA and that is VHA and 
all these different components. So if we begin to look more 
holistically at a veteran approaching the VA, you know, I 
always think of healthcare and benefits are your bedrock, they 
are your foundation, those are what allow you to then succeed 
in employment. You need housing so you have a place to live. 
You need transportation options so that you can get to your 
home and your job. I think, really, beginning to look at more 
of that focus on the veteran and what the veteran needs as 
opposed to the individual programmatic focus, which doesn't 
always see how the different programs interplay, and then what 
the veteran sees when he or she is trying to work with those 
different programs.
    Mr. Meglathery. And I think that is a great point about how 
the veteran sees just--they see VA, they don't see VHA, they 
don't see VBA, and so I think there is maybe, when they are--
certainly when they are getting off active duty, at least, 
points of contact, a specific point of contact so they can go 
to that person individually and that they can provide them the 
information that they need on all sides of that, because they 
don't see VBA, VHA.
    Mr. Costello. Thank you.
    Mr. Varela, in previous testimony, you mentioned that 
VR&E's focus is primarily aligned with education and training 
as opposed to immediate employment. And whether that is 
precisely what you said or what you alluded to, that is not--I 
am not going at you with that, but with that as context, how do 
you think that the VA can better incentivize the employment 
track? Mindful that veterans, like everyone else, has financial 
commitments and limited resources, and we are the economic 
opportunity subcommittee, can you share with me how we may be 
able to better focus on an employment track within the context 
of what we are talking about?
    Mr. Varela. Sure. Thank you, Congressman. And thank you for 
softening that approach. I do appreciate it.
    Mr. Costello. I try and be soft.
    Mr. Varela. The one thing we have to remember is that all 
tracks in the VR&E are employment tracks. It mean, the goal of 
VR&E, aside from independent living, and yes, the goal of 
independent living is to hopefully get somebody into employment 
as well, they are all employment-driven. So are we looking at 
rapid employment, are we looking at reentry into employment, 
long-term to employment? And it really comes down to, number 
one, what VR&E is going to determine that this individual is 
capable of doing? Okay? I come to VR&E and I say, I want to be 
a helicopter pilot. They may turn around to me and say, that is 
really not something that we are going to put you in this 
program to do, but based on your background, you know, we may 
put you in a program to be a mechanic or we may put you in a 
program to be, you know, a nurse, depending on what I am still 
qualified to do and what I am capable of doing.
    The other component of that is, is that VR&E counselor 
going to be able to spend the time that they need to spend with 
that veteran to ensure that they are going to complete the 
program?
    You know, one of the other issues that we have in VR&E is 
there is a lot of turnover in VR&E. What winds up happening is 
I may have developed a relationship with a VR&E counselor, I 
feel very comfortable with this counselor, and for some reason, 
that counselor is no longer there, so I have to restart over 
again with somebody else and hope that this person keeps me 
along the same track, shows the same interest. But every time 
you switch around, whether it is a doctor, whether it is a 
mechanic, or whether it is somebody in VR&E, you lose a little 
bit of that confidence. So if we can keep those VR&E counselors 
in VR&E, keep them happy, keep them working with those 
individuals that they have been working with, I think that is 
going to help ensure a successful outcome.
    Mr. Costello. Thank you.
    Dr. Wenstrup. We will do a second round of questions who 
has interest here to do that. I appreciate you sticking around 
for that.
    The longitudinal study, by the way, is available, and we 
can get you access to that, the questions, that were asked. So 
I am not sure where you got road-blocked, Mr. Varela, but we 
will get you that access.
    And I also appreciate the notion of a roundtable to talk 
about collaboration, and would like to try and get that on our 
schedule some time in the fall. The roundtables we have had in 
the past have been, I think, very productive and a good way to 
go about discussing some of these issues rather than a hearing 
in some cases. So just wanted to let you know we are going to 
try and proceed in those directions.
    I do have a question for Ms. Ansley to touch on a little 
bit about the relationship that you have as a non-profit 
working with voc rehab, and what are some of the opportunities 
that exist for other non-profits to try and help veterans and 
possibly ease some of the caseloads that we have.
    Ms. Ansley. Thank you for the question, Chairman. The 
relationship that our Operation PAVE has been able to work out 
with VA has been beneficial, not only in looking at extending 
services to people, the veterans that would be eligible for 
both programs, but also people who contact VA that are not 
eligible for the VR&E program.
    So, I think that that is one of the important aspects also 
of connecting with community partners, is that veterans who are 
non-service connected, family members, caregivers, you know, 
they are not eligible. And so we understand that in many cases, 
there have been connections to our program so that those 
individuals can be served.
    I think that for many non-profits that we work with, we 
work with a lot of other non-profits in the disability 
community who provide employment services to a wide range of 
people, including veterans, and a lot of times it becomes 
issues of not knowing who to connect with in the VA. If you 
connect one place, that doesn't mean you are going to be 
successful in connecting in other locations around the country. 
So I think having--you know, there has been a focus on how to 
connect with those local partners, but I think continuing to 
break down the barriers so that groups understand, who do I 
contact, how do I make the connection, and how do I show that I 
already serve this population in some respects, or maybe I 
serve people that you can't serve, and how can we work together 
to meet the broader veteran community. I think, again, those 
local community roundtables of even looking at what is 
happening in a particular community, a particular State, what 
are the resources, because in some places there may be a non-
profit that doesn't exist in another part of the country, and 
so being able to find out what is on the ground in your area, 
and then finding out, VA asking, are there questions, you know, 
what are barriers that we are presenting that prevent you from 
being able to serve our population of veterans, how can we 
better work with you to refer, you know, all of those different 
questions, but it really does begin on a very local level, but 
that is fostered by a messaging coming from the top that this 
is important.
    Dr. Wenstrup. You are a large organization nationwide. So 
that--it is to your advantage, I guess, to be able to plug in. 
So what you are suggesting is it is a little bit more difficult 
sometimes to make sure the people know about these outside 
services. Does the VA know that these outside services exist?
    Ms. Ansley. Right. Right. Do you know what services are 
available in your community and who it is that they serve so 
that when you are contacted by someone--like I said, if it is 
somebody you can't serve, somebody who you know, okay, we 
have--there is a great nonprofit in this area; they have a 
particular interest; we can partner with them. How could we 
learn from each other? How can we share best practices?
    I think that that is really what you benefit from. There 
are certainly organizations like ours that are across the 
country, but then there are others that are more local, more 
regional, that it would be great for VA to have those 
connections, and for veterans, you know, to be able to connect 
with long term and, like I said, their families, as well.
    Dr. Wenstrup. Well, how did you establish your referral 
pattern?
    Ms. Ansley. It has really been local counselors working 
with their local VR&E offices and making those individual 
relationships. In some cases, we know that they have worked 
really well with the VR&E office. I know we have one place 
where the OEF OIF office has been--at VA, has been a referral 
point. So we have talked with the VR&E staff, and they--at the 
national level, and they are interested in looking at how they 
can better make their local offices aware of this program, and 
not only our program, but other similar programs that are out 
there.
    Dr. Wenstrup. So in your situation, you made the outreach?
    Ms. Ansley. Typically, that is my understanding. I mean, I 
am sure--again, individualized locations may have different 
connections. But there are different connecting points at 
different regions, just like you see one VA, you have seen one.
    Dr. Wenstrup. Well, thank you very much.
    Mr. Takano, you are now recognized for 5 minutes.
    Mr. Takano. Thank you, Mr. Chairman.
    I have heard that the average level of disability rating 
for VR&E participants is around 60 percent. Does that sound 
right to you, more or less? I mean, it is not like there are 
people--that most people in the program are at 10 percent or 20 
percent disability. People come to VR&E with significant 
disability ratings, service-related. Is that right? I mean, it 
is around 60 percent?
    Mr. Meglathery. Yeah. I believe I have seen that number, 
the 60 percent.
    Mr. Takano. Yes. So I just want to make sure the committee 
understands what we are dealing with here.
    And the other thing is that the turnover rate among the 
counselors, what do we know about that turnover rate? Do you 
have a stat on that?
    Mr. Varela. That is information that we can obtain. I don't 
have that----
    Mr. Takano. You can obtain that? Okay. I would be 
interested to know, because, obviously, it is intuitive that 
the more stable the rate is, and the more that the 
servicemember or the veteran can stick with one counselor, I 
think the better outcome is going to be. If the counselor 
leaves, that is just another bump in the road, a challenge for 
that vet.
    I would love to see this roundtable happen, because I think 
this idea of the connections between the private sector 
employers who want to do this, who want to help, and to be able 
to get in the minds of those private sector employers where 
they can go, who they can register with to show availability. 
This matchmaking, doesn't necessarily happen instantaneously. 
It may take us time to develop that veteran for employability, 
but to work with that employer that will take--wants to work 
with somebody who may have lost a limb or--that is a challenge 
I think we should be able to solve.
    I want to ask a question about--as a point of 
clarification. You say that the benefits under the 9/11 GI Bill 
and the VR&E benefits, they are not able to simultaneous use 
them, but they can be used sequentially, correct? You can be 
deemed entitled to VR&E benefits, use those benefits, but then 
potentially use your GI benefits afterwards; is that correct?
    Mr. Varela. That is correct. Basically, what I was trying 
to say was you cannot be in Chapter 33 or Chapter 31 
simultaneously, although you could be eligible for both. And 
the only exception to that is the augmentation of the stipend 
that takes place in VR&E if you are also eligible for Chapter 
33 benefits.
    Mr. Takano. One of the things I have been concerned about 
with post-9/11 GI Bill benefits, is that I know that we have 
enormous numbers of people in the general population that 
cannot meaningfully, access, community college. I am not 
talking about veterans. Up to 70, 80 percent, of all incoming 
students lack the ability to place into college level English 
or math.
    Now, if you are using GI Bill benefits, you have to be 
enrolled full-time in order to get your housing stipend. And if 
you don't get into a college level math or college level 
English course, you are not taking actual credit bearing 
classes and, therefore, you can't meaningfully access your GI 
Bill benefits, and we don't pay for the remedial education. And 
I am not someone who believes everyone should go to college, 
necessarily.
    You can go into training programs, I am wondering on the 
VR&E side, what happens to veterans that may not have the skill 
levels yet to place into college level math or English? I mean, 
they may have such a disability because they never attained the 
college level readability. Do we have a way to provide--does 
the current law allow us to provide developmental education for 
that vet under VR&E?
    Mr. Varela. I would have to research that to be 100 percent 
certain. I would assume, knowing what I know about the VR&E 
program, that if you had an employment--because, basically, you 
are using your education to get to employment. That is the 
goal.
    Mr. Takano. Right. For many of the folks, they need to be 
able to be more in a more educated vocation than not.
    Mr. Varela. Correct. I believe that VR&E would be able to 
help a veteran overcome those barriers, maybe offer some 
additional testing, some additional classes to get them to that 
level. But I want to confirm that before I respond in the 
affirmative.
    Mr. Takano. Okay. Thank you.
    Dr. Wenstrup. Mr. McNerney, you are recognized for 5 
minutes.
    Mr. McNerney. Thank you. I have a couple of questions for 
Mr. Meglathery. You mentioned, and one of the other panelists 
mentioned, the one-year monitor of employment is insufficient. 
What is the current practice? I mean, not that they are 
insufficient, but they need a one-year monitoring program. What 
is the current practice?
    Mr. Meglathery. That would be 60 days, sir.
    Mr. McNerney. 60 days. So they are watched and see if they 
are employed for 60 days, and if they lose the job within 60 
days, they go back into the program; is that correct?
    Mr. Varela. So what happens is they are going to monitor a 
veteran that completes the program for 60 days. Now, that 
doesn't mean that services within VR&E are terminated. They can 
come back to VR&E and receive those same services. What we are 
talking about is the point in which VR&E can consider a case 
closed or where they can consider a case successfully 
rehabilitated. So they use that 60-day marker to say that after 
60 days, this person has been successfully rehabilitated. And 
what we are saying is before you make that successful 
rehabilitation determination, you probably need a little bit 
longer period of a time before you can reach that conclusion.
    Mr. McNerney. I mean, is that just a statistic, or do they 
use that 60-day failure to try and reenter the veteran into a 
program?
    Mr. Varela. They are going to use--VR&E's purpose for using 
that 60-day demarcation timeframe is to be able to report out 
that we have had a successful rehabilitation in that 60 days--
is that timeframe when they can do that in the case.
    Mr. McNerney. So it needs to be more than just the 
statistic anyway?
    Mr. Varela. Correct.
    Mr. McNerney. Okay. The other thing is, you mentioned, Mr. 
Meglathery, that veterans with mental disabilities have more--
have worse employment outcomes. Could you go into that a little 
bit for me?
    Mr. Meglathery. Well, I think, based on the fact that it is 
harder to maintain a job if you have some sort of--if you have 
post-traumatic stress, it might limit you from the ability to--
I mean, those kind of injuries kind of run the gamut, whether 
you can leave your house, whether you can work regular hours, 
whether you can sleep at night to traumatic brain injury, where 
maybe certain cognitive functions you have had in the past, you 
no longer have, but maybe you can do manually. So it might take 
longer to train to those as opposed to someone that maybe lost 
use of a limb, for instance, but they are able to do most 
anything else that they could have intellectually or even 
physically in some sense.
    Mr. McNerney. Is there additional service needed, or help 
needed, for folks with post-traumatic stress or other mental 
disabilities as a result of combat that would be useful in job 
training that isn't available now?
    Mr. Meglathery. Well, I think in one instance, it is a 
matter of time. So when we say that the ratio, 1 to 125, if 
everybody's on an equal playing field, maybe that is the case, 
whereas it might take longer for somebody with some sort of 
issue, TBI, PTS, or something like that. It might take that 
individual longer. So it is based on the individual.
    Mr. McNerney. Okay. Thank you, Mr. Chairman.
    Dr. Wenstrup. Ms. Rice, you are now recognized.
    Ms. Rice. Thank you, Mr. Chairman. So, Mr. Varela, I am 
going to ask you this question. There was some VR&E data, and 
the first thing that I want to make reference to is the volume 
of VR&E applications has increased over 30 percent from fiscal 
year 2011 to fiscal year 2014 with a nearly 10 percent growth 
in VR&E participants over each of the past 2 years. That is a 
pretty significant increase, right?
    Mr. Varela. We would think so. We believe so.
    Ms. Rice. So the next thing is what causes me--I am curious 
about, it says even with this traumatic growth, VR&E provided 
entitled determinations to applicants with an average of 43 
days, below the national target of 45 days. How can that be? 
That with an increase in applicants, there are actually being 
more efficient, and is it the counselors that you are talking 
about who make that initial determination?
    Mr. Varela. The counselors--the counselors will make a 
determination on entitlement, whether a veteran is eligible or 
ineligible. How they are making more entitlement decisions, 
does that tell us that they are making more entitlement 
decisions to grant access into the program, or are they simply 
just making decisions; yes, you are in or no, you are not in? 
Does that number correlate with an increase in the number of 
participants. I would need to tease that information out.
    Ms. Rice. Well, I think we need to. Because I don't see how 
you can have any increase at this rate of people seeking these 
services and the determinations are actually made below the 
targeted rate when we are talking about one of the biggest 
needs being an increase in counselors, who are the ones who are 
making these determinations. So that, I just thought, was a 
little curious. And I didn't know if you would have the answer 
to that.
    So can I just continue on what Mr. McNerney was asking 
before. If someone--so right now, if you--if someone is placed 
and you monitor them for 60 days, and they stay in that 
employment, and you see that as a successful transition, say, 
90 days or 120 days later, if that veteran loses their job at 
any time between 60 days and whenever, do you have a number--do 
you know how many people are in that category post 60 days 
separation from their employer who come back to reaccess the 
VR&E services, and are they allowed to at any time after that?
    Ms. Ansley. Certainly, veterans who--there would be an 
opportunity for them to come back to the program. I think the 
reason to keep engaged, though, and not get to that step is you 
don't want people who have had--been unsuccessful in the 
workplace to then decide, okay, I tried, and now I am going 
to--I am going to just say that I am not going to be able to 
work. That, I think, is the biggest--is the bigger reason.
    Whether somebody can't come back because, yes, there are 
opportunities where they can come back, but it is already a big 
step for somebody whose life has now changed with a significant 
disability to return to the workforce. Just like all of us, you 
know, 60 days is kind of not a very good time to be able to 
adjust. Throw in the fact that now you have never worked before 
as a person with a disability, you know, you have got 
accommodations, you have got other things you have got to 
figure out, it is just a barrier. That is the real issue, 
whether somebody can come back or not. The issue is sticking 
with them so that you can work through the bumps along the road 
that pop up.
    I know a lot of veterans that I have talked to, they are 
looking at what are my rights under the American with 
Disabilities Act, most of them were in the workforce. But they 
were thinking about, maybe I am just going to have to quit 
because I can't get my employer to make this accessible, or I 
don't know what to do. That is a step we never want to get to. 
And so I think that is really what we are saying.
    Ms. Rice. But there is no legal impediment or barrier to a 
veteran who loses their job post 60 days coming back and 
reaccessing your services--these services, VR&E services?
    Ms. Ansley. VR&E services.
    Ms. Rice. Okay. Thank you.
    Dr. Wenstrup. I think all Members of Congress can probably 
remember their first 60 days in Congress and relate to the 
challenges of that situation.
    But if there are no further questions of panel 1, I now 
excuse you, and I thank you all very much for being here, and I 
ask the second and final panel to come to the witness table.
    Our second panel, we have Mr. Jack Kammerer, the director 
of the Vocation Rehabilitation and Employment Service at VA. We 
also have Mr. Ralph Charlip, deputy assistant secretary for 
operations and management at DOL's Veterans Employment and 
Training Service. Welcome to both of you.
    Mr. Kammerer, you are now recognized for 5 minutes for your 
testimony.

                   STATEMENT OF JACK KAMMERER

    Mr. Kammerer. Chairman Wenstrup, Ranking Member Takano, 
subcommittee members, I appreciate the opportunity to appear 
before you today to discuss VA's VR&E program and our efforts 
to transform. We are engaged in initiatives to extend outreach, 
gain a better understanding of our current and future veteran 
population, increase program efficiencies, enhance supporting 
technology and reframe performance metrics. The VR&E program 
assists servicemembers and veterans with service-connected 
disabilities and barriers to employment in preparing for, 
finding, and maintaining suitable employment. For veterans with 
service-connected disabilities so severe that they cannot 
immediately consider employment, independent living services 
help to improve the ability to live as independently as 
possible. We employ nearly a thousand professional vocational 
rehabilitation counselors and deliver services through a 
network of almost 400 locations.
    Our service delivery supports veterans where they live and 
includes operations at 57 regional offices, 165 out-based 
offices, 71 installations for IDES, and 94 VetSuccess on Campus 
sites. As VBA continues to make progress, major progress on the 
backlog, more veterans with service-connected disabilities are 
potentially eligible for and in need of vocational 
rehabilitation services. The volume of VR&E applications has 
increased over 30 percent from 2011 to 2014 with nearly 10 
percent growth in participants in each of the past 2 years.
    In 2014, VR&E provided entitlement determinations to 
applicants in an average of 43 days, which was below the 
national target of 45 days.
    The total number of VR&E cases worked by VRCs, including 
applicants, exceeded 181,000 in 2014 and VR&E participants 
increased to nearly 124,000 in 2014. We successfully assisted 
over 10,000 veterans in achieving their rehabilitation goals in 
2014 with over 8,600 of those employment rehabilitations.
    Our colleagues at Department of Labor share our resolve 
towards these employment outcomes. With a team of 79 VSOC 
counselors, VR&E continues to partner with 94 schools to 
provide services to approximately 78,000 veterans on campus. 
Our counselors coordinate delivery of on-campus benefits 
assistance, educational, vocational, or adjustment counseling, 
and assist veterans in completing their education and entering 
the labor market in viable careers.
    We are committed to the VSOC program and continue to 
evaluate schools for potential future participation. We also 
closely collaborate with Department of Defense to provide VR&E 
services to servicemembers going through IDES, have deployed 
nearly 200 IDES counselors on 71 installations. We are jointly 
visiting select IDES sites with the Army's Warrior Transition 
Command to improve the VR&E referral process and enhance our 
outreach and early intervention counseling services. Since July 
2014, we have visited 12 Army installations with the Army's 
Warrior Transition command. We also continue to work on Chapter 
36 educational and career counseling services to transitioning 
servicemembers and veterans, updated our Chapter 36 information 
and incorporated it into the Transition Assistance Program 
curriculums with those updates.
    VR&E is also preparing for the initial development of our 
new case management system. The goals of the new system, 
develop a paperless service delivery model, better support 
veterans on their own terms, ensure consistent service delivery 
and quality, and modernize the employee experience.
    In collaboration with VHA, VR&E has also expanded the use 
of VHA telehealth and CAPRI technologies to enhance direct 
veterans service through online counseling technology and 
electronic medical referrals. VR&E is now implementing new 
performance measures that will place a greater focus on veteran 
outcomes. Success rate is the percentage of veterans who 
complete their goals and/or have obtained employment (positive 
outcomes), and the persistence rate is the number in the class 
who have successfully achieved a positive outcome plus those 
persisting in their rehabilitation, both measured against 
veterans in their class. We will use a 6-year completion model 
that better reflects the individual needs of veterans in VR&E. 
These new measures of veterans VR&E success are driven by 
positive outcomes and active participation. VR&E continues to 
refine our business processes. We have lowered cost approval 
thresholds for IL construction to $15,000, and we have 
implemented additional self-employment reviews.
    At the VR&E training conference last month, we discussed 
both improving service delivery and accountability for case 
management. As caseloads continue to grow, we continue to look 
at ways to reduce the workload burden on our counselors.
    Of the two remaining open GAO recommendations, new 
performance measures were implemented on 1 July, and we are 
awaiting development of the new VR&E case management system, 
which will help us to track the post-outcome closures. The 20-
year congressionally-mandated study of VR&E cohorts, 2010, 
2012, and 2014, has provided us a wealth of information to 
date. This year we found that approximately 90 percent of 
participants for all cohorts reported moderate- to high-program 
satisfaction.
    Nearly one-quarter of our veterans in each cohort have a 
primary rating for PTSO; 85 percent of veterans who achieved 
rehabilitation from an employment plan in Cohurts I and II are 
currently still employed, and veterans who successfully 
complete the VR&E program report more positive economic 
outcomes, higher employment rates, annual earnings, and more 
frequent homeownership.
    Mr. Chairman, we will continue to assess and improve the 
delivery of VR&E services, and we remain focused on 
transforming VR&E. This concludes my statement. I would be 
pleased to answer your questions.

    [The prepared statement of Mr. Jack Kammerer appears in the 
Appendix]

    Dr. Wenstrup. Thank you, Mr. Kammerer.
    Mr. Charlip, you are now recognized for 5 minutes.

                   STATEMENT OF RALPH CHARLIP

    Mr. Charlip. Good morning, Mr. Chairman, Ranking Member 
Takano, and distinguished members of the subcommittee. My name 
is Ralph Charlip, and I am the deputy assistant secretary for 
operations and management with the Department of Labor's 
Veterans Employment and Training Service.
    I am also honored to be a retired Air Force medical service 
core officer, having served 22 years on active duty before 
becoming a Federal civil servant.
    Thank you for the opportunity to participate in today's 
hearing to discuss the Department's role in providing 
employment services to our Nation's veterans and servicemembers 
in coordination with the VA's vocational rehabilitation and 
employment program. The Department takes our role in providing 
employment services to veterans and transitioning 
servicemembers, including those in the VA's VR&E program, very 
seriously. DOL-funded support for veterans with significant 
barriers to employment is delivered primarily by disabled 
veteran outreach program specialists DVOPS in American job 
centers across the country. DVOP positions are funded through 
the jobs for veteran State grant (JVSG) program administered by 
DOL VETS. JVSG-funded positions are aligned with other 
employment services provided at American job centers.
    DOL's employment services for disabled veterans complement 
the services provided by VR&E counselors. This requires close 
coordination between VR&E and VETS and is managed under a 
memorandum of agreement (MOA) between DOL and VA. The most 
recent MOA is dated February 27, 2015. The MOA describes the 
goals of our coordination, the roles and responsibilities of 
each party, and establishes a working group comprised of staff 
members from both departments to manage the collaboration. We 
see ourselves as a vital member of a multiparty team--DOL, 
through Federal, State, and local staff, VA's VR&E counselors, 
and the disabled veterans who benefit from our services.
    VA's VR&E is a comprehensive rehabilitation program that 
assists servicemembers and veterans with service-connected 
disabilities and barriers to employment in preparing for 
finding and maintaining suitable employment. DVOP specialists, 
on the other hand, provide intensive services to a wider 
variety of veterans who have significant barriers to 
employment. These barriers may include a service-connected 
disability, homelessness, low income, lack of a high school 
diploma or equivalent, or similar challenges. While VA is not 
required to refer VR&E participants to DOL for assistance, the 
new MOA strongly encourages such referrals.
    In practice, a veteran who is enrolled in the VR&E program 
and is referred to DOL interacts with the DVOP at two distinct 
points. The first point is during or following enrollment in 
the VR&E program when our DVOP specialist provides labor and 
marketing information, guidance to applicants, new enrollees, 
and their counselors. This includes information about the types 
of jobs that are available in the geographic area where the 
veteran desires to work, and assessment of the veterans' skills 
and the kinds of training and education that would be required 
to enter a particular industry.
    The second point occurs when the veteran nears completion 
of the VR&E program and is beginning to look for work. When the 
veteran is referred to DOL for employment services, a DVOP 
specialist works with the individual to prepare them for jobs 
which match their abilities, education, and training, and are 
in the career field and geographic area identified within 
VR&E's individual written rehabilitation plan.
    The story of Lori Mobbs provides one example of how this 
interagency coordination works. An Army veteran with more than 
15 years of military service, she utilized the VR&E program to 
complete her degree in geography in December 2014. Through 
effective collaboration between the Department of Veterans' 
Affairs and the Alabama Departments of Labor and Veterans' 
Affairs, she met with the DVOP specialist. Who provided Federal 
job search assistance during her initial visit an AJC in 
Huntsville, Alabama. Because she was eligible for intensive 
services and because of her strong desire to obtain employment 
with the National Park Service, the DVOP specialist assisted 
her in applying for several jobs with the National Park 
Service. I am very pleased to report that she accepted a 
position at Olympic National Park in Washington State in April 
2015 and reported to work last month.
    DOL and VA coordinate to give veterans seamless services to 
achieve their employment goals. We are proud of the DOL 
programs that deliver positive employment outcomes for our 
disabled veterans and look forward to continuing to work with 
our VA partners and this subcommittee. Chairman Wenstrup, 
Ranking Member Takano, distinguished members of the 
subcommittee, thank you for the opportunity to take an active 
part in the hearing. I welcome any questions you might have.

    [The prepared statement of Mr. Ralph Charlip appears in the 
Appendix]

    Dr. Wenstrup. I want to thank you both for your testimony. 
I will now yield myself 5 minutes for questions.
    Mr. Kammerer, we heard today that the standard ratio for 
the counselors is 1 to 125, and the budget estimates that it 
would take 382 full-time employees. Do you think that number is 
correct to be able to get to that standard?
    Mr. Kammerer. I am sorry, Mr. Chairman. I didn't hear the 
second question. I heard the 1 to 125.
    Dr. Wenstrup. The other part of the question is that the 
independent budget estimates that it would take 382 full-time 
employees to reach that 1 to 125. Do you think that is a good 
estimate?
    Mr. Kammerer. I would have to look at the numbers, Mr. 
Chairman. I haven't analyzed the numbers. I would say our 
caseload right now for fiscal year 2014, our average caseload 
was 135 per counselor. As of the end of May, it was 139 per 
counselor. It is--as I testified in my opening statement, the 
number of participants has grown about 10 percent in the last 2 
years. So I think that right now we are on estimate to exceed 
the participants from last year. So I think that explains the 
growing caseload, and it is something I will take a look at to 
answer your questions.
    Dr. Wenstrup. Sure. Also you talk about standards, but 
there is also best practices and what is actually working. And 
so my next question comes down to what the staffing looks like 
for each counselor. How many people do they have working under 
them? And what are their roles? In other words, we heard from 
the previous testimonies today that talk about enhancing 
follow-up through IT, and so my question comes in, what type of 
role does the staff for each counselor take? Are they doing 
some of the follow-up? Are they keeping up with the client, if 
you will? And are they another access point into the counselor 
office, if you will? What does that look like right now?
    Mr. Kammerer. That is a great question, Mr. Chairman. The 
counselors are supported by support staff. It is not robust, 
but the fact is, as you mentioned, we are trying to reduce the 
administrative burden on the counselors through a variety of 
means. But one of those is the new case management system that 
you described. The next is to look at new case management 
procedures to streamline the process, whether it is Lean Six or 
other means that we are looking into. In our conference last 
month, we presented some simplified case management flows to 
the counselors to help them. And then work studies, volunteers. 
We do have contract support, Mr. Chairman.
    Dr. Wenstrup. Well, what does that look like now in 
numbers? From what you just said, I have no idea if the 
counselor has 30 people under him or one.
    Mr. Kammerer. It depends on each regional office, Mr. 
Chairman. I can get you the breakdown per regional office. As I 
mentioned, it is a very small support staff that supports the 
counselors. The counselors do a lot of the administrative 
processing in terms of the caseload for their veterans. The 
support staff assists with the processing of the applications, 
but the case management itself is a very counselor-intensive 
process.
    Dr. Wenstrup. We talked about this yesterday in our 
conversation.
    Mr. Kammerer. Yes, sir.
    Dr. Wenstrup. Like Lean Six Sigma, and things like that. 
You said the Secretary understands this type of thing. If it 
varies from one place to the other, I think we have a problem. 
And I think that we should be able to come up with what works 
best, especially in the veteran population. And I would suggest 
that we task ourselves with that, or I task you with that, if 
you will. But we need to find that out, what is the best model 
for staffing? That is how any business would operate. And how 
do you serve your client the best. Is it one person? Is it 
three people? Are they assigned with roles or follow-up? I am 
not getting answers to that today. And I would like to know, 
really, where we are with that and how we are headed to, truly, 
evaluate what is the best practice method for that.
    Mr. Kammerer. Yes, sir. I will certainly follow-up and get 
you more detailed information on that. And I certainly concur 
with your thought that the bottom line is we need to ensure 
consistent service delivery, and we need to make sure we 
understand what is going on in each individual office. Because, 
as I mentioned, the caseload per counselor is an average, but 
each office has individual circumstances.
    Dr. Wenstrup. Mr. Takano, you are a now recognized for 5 
minutes.
    Mr. Takano. Thank you, Mr. Chairman.
    Mr. Kammerer, you are familiar with Vet Success on Campus, 
that program?
    Mr. Kammerer. Yes, sir.
    Mr. Takano. The counselors work with the veterans that are 
actually on the campuses, correct? And do you know if they are 
able to connect students that might be eligible for VR&E 
services with those services?
    Mr. Kammerer. Yes, sir. That is a great question. As I 
mentioned in my opening statement, we currently have 79 VSOC 
counselors at 94 locations. The VSOC counselors, they are 
trained vocational rehabilitation counselors with a master's in 
counseling. They have a separate performance standard, and one 
of their performance elements is to conduct outreach and to 
connect with veterans. And the thought is--and on our 94 
campuses, we serve about 78,000 veterans.
    Last year we connected with about 29,000 veterans, Mr. 
Takano, first time, and about 28,000 returning veterans. So as 
part of their duties, they are supposed to conduct outreach. We 
are very aggressive about connecting with veterans. And then 
once we connect with those veterans, we provide them 
information on the range of VA benefits and services.
    And your specific question was do we help them with 
vocational rehab employment. The answer is in some cases, they 
may become our clients. In other case, they are our clients. Or 
in other cases, they may need Chapter 36 or other support. So 
we try to reach them, and we try to connect and help them.
    Mr. Takano. I can imagine this is a pretty key point of 
contact for those veterans, because they are going to the 
university or the community college. If there happens to be a 
VSOC counselor there, they likely make contact with that 
counselor. And if that counselor is able to get to know that 
student, the question is, are they able to refer them to VR&E 
if they might be eligible.
    I want to know, is there a risk that service-connected 
disabled student veterans are going to school on the GI Bill, 
because when they went through TAP they may not have understood 
that they could be eligible for VR&E services? Is there a risk 
that they could miss out on opportunities and resources that 
are exclusive to VR&E? Can you comment more on that?
    Mr. Kammerer. It is an excellent question, sir. Thank you 
for that question.
    We have certainly reinforced our content in the Transition 
Assistance Program about vocational rehabilitation and 
employment. As I mentioned in our statement, we have also 
provided additional updated content recently about Chapter 36 
to make sure we reach veterans transitioning servicemembers 
about that.
    But the bottom line is we need to make sure that we provide 
the best information we can to transitioning servicemembers in 
TAP, or even in the refresher online, or even in the IDES 
program. As I mentioned, we have nearly 200 counselors out 
there working on installations. But we need to make sure that 
we present the information about the VR&E program.
    In some cases, Mr. Takano, as you know, a veteran--as you 
heard in the previous testimony, would make a choice between 
the GI Bill or applying for VR&E. And then once they apply for 
vocational rehab and employment, as was previously testified, 
there is an eligibility and entitlement decision to be made, 
and the veteran then applies, needs to be eligible with a 10 
percent or 20 percent disability, and the entitlement decision, 
as you know, is based on the employment barrier that that 
veteran may or may not have, based on their service-connected 
disability.
    Mr. Takano. If they are pursuing their educational benefits 
under the GI Bill and they suddenly discover that they are 
having trouble succeeding in their course work, is the vet at 
that point able to go and seek eligibility under VR&E?
    Mr. Kammerer. Yes, sir. That is a great question.
    If you are using your GI Bill and later determine that you 
would like to apply for VR&E, we can certainly serve you. We 
still would have to go through the eligibility and entitlement. 
And then, certainly, once you are eligible and entitled, as you 
heard in previous testimony, our counselors certainly have a 
wide range of resources to support the veteran going through 
their education. About over 60 percent of our clients last year 
were in education and training programs and our counselors have 
a robust number of means available to assist those veterans in 
going through their education experiences.
    Mr. Takano. Great.
    Thank you, Mr. Chairman. I yield back.
    Dr. Wenstrup. Mr. Costello, you are now recognized.
    Mr. Costello. Mr. Charlip, do you have any way to track how 
many participants that were referred to DOL by VR&E received a 
job as a direct result of services received from DVOP, LVER, or 
other DOL-funded staff? I know there are a lot of acronyms in 
there.
    Mr. Charlip. Yes, sir, we do have the ability to track that 
information.
    Mr. Costello. Okay. Next question. Mr. Kammerer, why do you 
think veterans discontinue from using VR&E services as 
reflected in the longitudinal study, and what are you doing to 
increase program retention rates?
    Mr. Kammerer. Thank you, sir. That is a great question.
    I think I would need to get you a detailed answer for the 
record based on the longitudinal study. And I would point out 
also, Mr. Chairman, Mr. Ranking Member, the longitudinal study 
is going through the concurrence process and is headed up here 
for submission this year for our fifth year.
    To answer your question about discontinuations based on a 
longitudinal study, I think that there is a variety of factors, 
in general. You know, again, the veteran, in some cases, 
chooses to discontinue based on his or her personal 
circumstances. Many--and we talked about--or you talked about 
in previous testimony the point was made about the 90 percent 
of veterans that were moderately- to highly-satisfied that we 
found this year, that includes the veterans that discontinued 
this year.
    Last year it was 90 percent, nearly 90 percent, not 
including the veterans that discontinued. So we saw in the 
longitudinal study this year a pretty high satisfaction rate. I 
think it was approaching 70 percent for those veterans that 
discontinued. So it appears, at least in initial analysis, that 
veterans have healthy relationships with their counselors that 
are getting services. I think, number one, is a choice, some of 
them discontinue; number two, it could be possible that some of 
those veterans decided to not continue with the rehabilitation 
plan and just seek employment or gain employment on their own. 
But I will get you detailed answer for the record or more 
detailed answers on that.
    Mr. Costello. Thank you.
    Back to Mr. Charlip. Following up on my first question, how 
have you been able to track how many participants that were 
referred to DOL by VR&E received a job offer as a direct result 
of their services?
    Mr. Charlip. Under the memorandum of agreement that has 
existed, there is a procedure for doing that, and a form and 
tool that is used to track those referrals. And so we have that 
information. That is then validated by VR&E and VETS on a 
recurring basis.
    Mr. Costello. And what are the trend lines showing?
    Mr. Charlip. I don't know that, and I will get you an 
answer.
    Mr. Costello. Okay. Thank you.
    No further questions.
    Dr. Wenstrup. Ms. Rice, you are recognized for 5 minutes.
    Ms. Rice. Thank you, Mr. Chairman.
    I am going to ask a slightly proprietary question just 
because it has to do with some schools in my district. But I 
want to also, like Mr. Takano, ask about the VetSuccess on 
Campus program. So you may or may not be aware that Nassau 
Community College, which is in my home district, is in the 
running to get a VSOC assigned to its campus. And in order to 
qualify, they have agreed to partnership with Adelphi 
University, which is also in my district, and Suffolk Community 
College, which is just outside of my district, to help their 
chances of getting a VSOC.
    So my question is, I am not going to put you on the spot 
and say, when do you plan on deciding who gets the VSOCs, 
because that would be far too self-serving. But what I am 
getting at is, I understand you say you have 79 VSOCs at 94 
locations. Until that number is we have X number at every 
single location, every school so that every single vet who is 
attending school can be approached and hopefully get 
information about the VR&E program or any other service that is 
available to them. I guess my question is how many other 
colleges are trying to get a VSOC right now at this moment, and 
do you have plans to expand this program in the future?
    Mr. Kammerer. That is a great question. I would take, for 
the record, the number of schools that have actually requested 
a VSOC, ma'am. We have that available. We have done detailed 
analysis, and we certainly maintain a list of schools that we 
would like to serve with VSOC counselors, certainly with 
resources permitting, and we do that analysis all the time. It 
is complete. It is ongoing analysis. And you have a great 
point. You know, there are many thousands of schools that are 
supported by the GI Bill, and there are many, many thousands of 
veterans that are attending college on those campuses, and we 
are only serving at this point the 94 schools.
    So we have also looked at a number of things. I was in a 
meeting yesterday. We are looking at how would we provide VSOC 
support online, because, as you know, ma'am, there are many 
veterans and many servicemembers take advantage of educational 
opportunities online. So it is an obvious question, how much 
you provide support to veterans that are attending school 
online.
    We have done a pilot at the University of Iowa to develop 
some exportable content that we might be able to provide some 
instruction to schools to use it to better serve and help 
veterans particularly on the employment side. So it is 
certainly something my boss, Deputy Under Secretary Coy has a 
very--as you know, a very dedicated interest to serving 
veterans on campus, and we strongly look at opportunities for 
the VSOC program. And we do--and we will get you the detailed 
list of schools that have asked for VSOCers. But the bottom 
line is we look at a number of criteria, including one of the 
things we like to do is serve as many veterans as possible, 
ma'am. But the partnering that you mentioned is so important in 
that, and we have a number of schools where we do partner, 
where a VSOC counselor will serve multiple schools to serve as 
many veterans as possible. And that model, ma'am, works pretty 
well, although it certainly does put a challenge on the 
counselor serving multiple locations, but I think we try to 
manage that geographically.
    Ms. Rice. It wouldn't be an ideal situation to have one 
counselor for three schools that are not always geographically 
friendly, but at least that is a start. And to me, over and 
over we hear a recurring issue regarding outreach to veterans. 
How--where can we find them? How do we communicate with them, 
whether it is online, through the mail whatever it is. It seems 
to me that the number of veterans we know--we can capture the 
number of veterans who are actually using the GI Bill, right? 
That is a number we have the ability to get. It is like--I 
don't know if this is a wrong phrase, but it is like shooting 
fish in a barrel. We know where they are, so why aren't we 
putting a counselor there to make it easier to do that 
outreach? So that is that.
    One other question for you. Many of our veterans, and we 
hear over and over again, they face invisible barriers to 
employment. So my question is, how do you train VR&E counselors 
to work with vulnerable veterans who are suffering from a 
mental health issue, so it is not a lost limb or something that 
overt, and who may have been discharged with an other-than-
honorable designation?
    Mr. Kammerer. Let me answer your first question first, 
ma'am. As I mentioned in my opening statement, and you will see 
the longitudinal study shortly, there is very detailed data in 
the longitudinal study that indicates for the 2010, 2012, and 
2014 cohorts on or about 25 percent of the veterans that were 
studied in those 3 years, those 3 cohort years, had PTSD. And 
certainly, PTSD is not the only mental health challenge that we 
are talking about here. It is very, very important to us to 
make sure that our counselors are trained and aware and our 
other employees are aware of these challenges for veterans. We 
deployed training last year to all the VR&E staff that we 
worked with the--we partner, and the question was asked earlier 
with VHA. We partner with VHA, particularly with the mental 
health side. We are partnering right now with Dr. Stacey 
Pollack, who is one of the national PTSD experts, and it is 
very, very critical to us to continue to support our veterans 
along those aspects as you talked about.
    So the longitudinal study indicates the criticality of what 
you mentioned, ma'am. We are partnering with VHA on the mental 
health side. We have fielded additional training, and it is 
very, very important. The question of who we serve with less 
than honorable, certainly, you know--another thing I should 
have mentioned too, it wasn't really your question, but we also 
work with VHA on the homeless side, because some of the 
homeless veterans could, in fact, as you well know, ma'am, be 
eligible for VR&E services. So----
    Ms. Rice. One of my other questions, I know I am out of 
time, but I wanted to see what you were doing. What are 
counselors doing to help veterans find--find and retain 
housing, which is this--they are equally problematic, the 
joblessness and the homelessness, obviously. But I think my 
time is up.
    Thank you, Mr. Chairman----
    So can you answer that about, we talk a lot about 
employment, but what are you doing in terms of helping veterans 
obtain and retain housing?
    Mr. Kammerer. On the housing side, that is really the 
purview of VHA and the homeless program. As you mentioned, 
ma'am, I think--and my boss reminds me all the time, that the E 
in VR&E is for employment. So I think that our piece to that is 
we are working on the--with the homeless team in terms of 
identifying those veterans, that those homeless veterans, that 
they are working with, to achieve the housing side of it, and 
then if they are potentially eligible and entitled for VR&E 
services, that we would work with them with a counselor and 
then work with them on the employment side.
    So I think the employment part for us is the critical part, 
but I think the key thing to your question is that we do 
closely partner with VHA on the homeless team. And most of 
that--or a lot of that happens at the local level as well in 
terms of that partnership, you know, in your district or where 
there are VHA facilities that have the operational homeless 
teams identifying the potential clients that they could refer 
to VR&E as they are assisting them in their needs, we would 
assist them.
    Again, many of them would be eligible and entitled for 
VR&E, as you pointed out, and we would want to connect with 
them. And as you know, ma'am, in some cases, connecting with 
them could be a challenge, but we work with VHA to make sure we 
do that.
    Ms. Rice. Well, if there is any obstacle to that 
communication that really should happen between the two 
agencies responsible for these two issues, I would hope that 
you would bring that to our attention if there is something 
that we could do. Because there is no reason to silo those two 
issues, homelessness and joblessness.
    Mr. Kammerer. Lisa Pape, the director of the VHA homeless 
program came and talked to our VR&E officers last year, and we 
partner with her closely and the teams. But, again, as I 
mentioned, as you pointed out, the interactions are local, and 
we have to make sure that--and we are working to make sure that 
our counselors at the local level and officers at the local 
level are partnering through VBA and VHA to make sure we make 
those connections with the potential veterans that could 
benefit from our services. Because, as you pointed out, housing 
is a piece of that, but employment is a critical task.
    Ms. Rice. Thank you.
    Thank you, Mr. Chairman.
    Dr. Wenstrup. A couple of things before we wrap up.
    Mr. Charlip, I am not sure you have it right, and I may be 
wrong, but I don't think that you are able to track if the 
employment that the veteran has is a direct result of the work 
from your agency. You may be able to track that they have 
employment, but whether it was a direct result of the work of 
your agency or something they did on their own you are not able 
to track. And that we may want to clarify, and those would be 
numbers that we would, I think, it is important for us to know 
as we move forward.
    Mr. Kammerer, going back to the counselors. You know, our 
goal there is to increase productivity and possibly do it as a 
lesser cost. So there may be certain standards that exist, but 
we need to evaluate what our standards need to be as far as 
staffing for each of the counselors.
    For example, in our medical practice, I didn't call every 
one of my post-op patients, but my medical assistant did. And 
if I needed to intervene, then I got involved. But we used 
staff to make sure that they were doing okay, and everything 
was going fine. So those are the types of things that I think 
we need to look at, because we can have extenders to our 
counselors, and maybe possibly don't need more counselors, but 
more extenders for them. And one of the things that we 
discussed, as we go down the road, and you and I talked about 
it offline, is what we are doing with IDES, the locations, do 
we need a full-time person at each location? Can they be part 
time? Situations like that that we can evaluate and hopefully 
be more efficient and make sure that we are getting the job 
done.
    But with that, I want to thank you both for your testimony 
and for answering our questions. You are now excused.
    And I thank everyone for your attendance today and the 
frank and valuable discussion on how to improve the important 
programs. As I said earlier, this program should be the crown 
jewel of benefits within the Department. And while great 
strides have been made by Mr. Kammerer, your staff, and others, 
progress still needs to be made to give the proper services to 
our most severely wounded veterans. I look forward to 
continuing to work with everyone here today and others to 
ensure that we reach our goals. Our veterans deserve nothing 
less.
    Finally, I ask unanimous consent that all members have 5 
legislative days to revise and extend the remarks and include 
any extraneous material in the record of today's hearing. 
Hearing no objection, so ordered. If there is nothing further, 
this hearing is adjourned.
    [Whereupon, at 11:50 a.m., the subcommittee was adjourned.]

                                APPENDIX
                                
                                
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              
                                
                                
                                
 
                                 [all]
</pre></body></html>
